No. 20-1295
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
TIMOTHY ZACHARY GREEN
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONER, via email and first-class mail, postage prepaid,
this 26th day of April, 2021
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 1,203
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
April 26, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
April 26, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1295
USA
TIMOTHY ZACHARY GREEN
CULLEN OAKES MACBETH
ASSISTANT FEDERAL PUBLIC DEFENDER
6411 IVY LANE
SUITE 710
GREENBELT, MD 20770-1405
301-344-0600
CULLEN_MACBETH@FD.ORG
JAMES WYDA
FEDERAL PUBLIC DEFENDER
100 SOUTH CHARLES STREET
TOWER II, 9TH FLOOR
BALTIMORE, MD 21201-2705
410-962-3962
JIM_WYDA@FD.ORG

VIA EMAIL

